Appendix A to
Respondent’s Brief in Opposition
Order Denying Post-Conviction Relief

IN TIIE CIRCUIT COURT OF HARRISON COUNTY, MISSISSIPPI
FIRST JUDICTAL DISTRICT
PETITIONER

ALAN DALE WALKER

Cause No. 25,945

VS

RESPONDENT

STATE OF MISSISSIPPI

CORRECTED ORDER AND REASONS ON PETITIONER'S
MOTION TO VACATE SENTENCEi
"Today this [circuit] court is [again] confronted with the senseless slaying of Konya
Rebecca Edwards, a young teenager who fought back against her assailants and at other times
cooperated in a vain attempt to avoid being killed, to which the jury responded by sentencing Alan
Dale Walker to death.'' 1 The Court, having carefully considered Walker's Petition to Vacate
Sentence, the State of Mississippi's response, together with all other pleadings, exhibits, affidavits,
live testimony, trial records and exhibits, and applicable case law finds that the motion should be
denied, all as outlined below:
I.

PROCEDURAL HISTORY

Walker's conviction and death sentence for the murder of Konya Edwards were affinned
on direct appeal. Walker v. State, 671 So. 2d 581 (Miss, 1995). Represented by the Mississippi
Office of Capital Post-Conviction Counsel ("MOCPCC"), Walker unsuccessfully sought post­
conviction relief. Walker v. State, 863 So. 2d l (Miss. 2004).
Walker filed a petition for a writ of habeas corpus in federal court, raising a challenge to
the effectiveness of trial counsel's penalty phase performance. Although recognizing that the issue

1

Adapted from Justice Smith's opening of the 8-1 affirmance of petitioner's conviction and death sentence. Walker

v. State, 671 So.2d 581,587 (Miss. 1995).

561

had not been presented to the state courts, Walker asked the District Court to excuse his failure to
exhaust his state court remedy due to deficiencies in post-conviction representation. Pet. Reply to
Resp. Answer (Doc 51), Walker v. Epps, No. 1:97-cv-29-KS, at 23-83 (S.D. Miss). In tum, the
State asserted that there was no right to effective post-conviction counsel and urged the District
Court to find the ineffectiveness claim barred. See Resp. Mem. of Authorities (Doc 99), Walker
v. Epps, No. l :97-cv-29-KS, at 127-144 (S.D. Miss.); see also Resp. Answer (Doc 46) at 3, 17-18.

Later, Walker renewed his request with the federal court to stay habeas proceedings and
also requested leave to file a successive petition for post-conviction relief so that he may pursue a
claim of ineffective assistance of post-conviction counsel. After the federal court granted the stay,
Walker returned to state court with a successive petition for post-conviction relief challenging trial
counsel's performance at the penalty phase of his trial and arguing that the ineffective assistance
of prior post-conviction counsel provided cause to overcome the successive petition bar. The
Mississippi Supreme Court agreed that prior post-conviction counsel performed in a deficient
manner and granted leave for Petitioner to file his petition with the Circuit Court. Walker v. State,
131 So. 3d 562 (Miss. 2013). On December 12, 2013, the Supreme Court ordered this Court to:
conduct a hearing to determine whether Alan Dale Walker's trial
counsel was ineffective in searching for and presenting mitigation
evidence during the penalty phase of his trial, and whether Walker
suffered prejudice from such deficient performance, if any,
"sufficient to undermine the confidence in the outcome actually
reached at sentencing."

Id. at 564 (quoting Doss v. State. 19 So. 3d 690, 708 (Miss. 2009)).
Petitioner filed his Motion to Vacate Sentence on April 29, 2014. After preliminary motion
practice and additional psychological testing by petitioner's expert, this Court held an evidentiary
hearing over two separate days. On February 22, 2016, the Court heard from Petitioner's lay
witnesses, including Walker's siblings, Amanda Fredrick, Leon Fredrick, and Terry Walker; Alan
2

562

Walker's parents, Anita Fredrick and Ronald Walker; Alan Walker's maternal aunt, Nellie
Richards; Anita Fredrick's friend and supervisor, Vera Faye Breland. 2 At the December 1, 2016
hearing, the Court heard testimony from Alan Walker's trial counsel, Earl Stegall and experts
Matthew Mendel, Ph.D. and Robert Shaffer, Ph.D. At the conclusion of the hearing, the Court set
a deadline for post-hearing briefs which was extended at the request and agreement of the parties.
After briefing, and while the Court undertook to decide the merits of the remand issue, the
undersigned located within the clerk's trial exhibits, a previously believed to be missing report
from a psychiatrist. The forensic evaluation and subsequent report had been sealed and placed
into the trial court record. Additional motion practice followed; the report was disclosed to both
sides; and both petitioner and respondent supplemented their briefs accordingly. The instant
motion is now ripe for adjudication.

II.

LEGAL STANDARD FOR INEFFECTIVE ASSISTANCE OF COUNSEL

Claims of ineffective assistance of counsel are guided by the two-part test announced in
Strickland v. Washington, 466 U.S. 668, l 04 S.Ct. 2052, 80 L.Ed.2d 674 (1984), as adopted by the

Mississippi Supreme Court in Stringer v. State, 454 So. 2d 468, 476-77 (Miss. 1984). To succeed
on a claim of ineffective assistance of counsel, Petitioner must show that trial counsel's
performance was deficient, and that the deficient performance resulted in prejudice. Id. Prong 1
requires a showing that counsel's errors fell below an objective standard of reasonableness.
Strickland, 466 U.S. at 688.

Prong 2 requires Petitioner to show that counsel's deficient

performance resulted in prejudice. Id. at 692. When a petitioner challenges a sentence of death
based on a claim of ineffective assistance, "the question is whether there is a reasonable probability
that, absent the errors, the sentencer-including an appellate court, to the extent it independently

2

Each witnesses' testimony is summarized in Part Ill, but the Court notes here that a substantial amount of
testimony did not deal with petitioner himself or his background, was cumulative and objectionable.

3

563

reweighs the evidence-would have concluded that the balance of aggravating and mitigating
circumstances did not warrant death." Id. at 695. At this Post-Conviction stage, petitioner bears
the burden of proof to prove each Strickland element by a preponderance of the evidence.
Miss.Code Ann. § 99-39-23(7).

III.

SUMMARY OF WITNESS TESTIMONY

Amanda Frederick
Walker's sister, Amanda Frederick, testified that her mother conceived four children by
three different men. Amanda's brothers are Alan Dale Walker (Walker), Terry Walker, and Leon
Frederick. She testified that their mother, Anita Frederick, had a difficult time raising them
because she worked long hours at two jobs. Because of the long hours Anita worked, Walker and
Leon took care of Amanda. She recalled that Walker drank beer when his friends came over,
which was often. She had seen Walker drunk "quite a few times" during her childhood. One of
the people Walker hung around was an older man named Jack Collins who got Walker and his
friends to "steal stuff."
Walker and his girlfriend, Robin Marroy, had a daughter, Michelle, in 1990. Before
becoming involved with Walker, Robin married Leroy Marroy when she was a teenager and Leroy
was in his 50s.
Amanda was eleven years old when she testified at her brother's trial in 1991. She testified
that Walker's attorneys never spoke to her until the time of trial. Had they done so, she would
have offered the same information she offered at the evidentiary hearing.
On cross-examination, Amanda testified she was ten years old when her brother murdered
Konya Edwards. When her brother's friends came over to drink, they also smoked pot.

4

564

With counsels' consent, the Court examined Amanda about a situation she referenced on
direct examination where Walker confronted a man who "flashed" their mother. 3 Amanda
characterized Walker as protective of his mother. She further opined that Walker was able to
distinguish what type of behavior toward a female was inappropriate and had been taught by his
mother "how to treat people right, not how to do people wrong."

Anita Frederick
Anita Frederick, Walker's mother, testified that she grew up in Pensacola Florida and that
she started selling magazines when she was sixteen to get away from home. Selling magazines
was how she met Walker's father, Ronnie Walker. Anita testified about her parents and siblings.
Her father left when she was seven or eight, and her mother was not around when she needed her.
Anita had to take care of a younger sister after her mom was jailed in relation to being intoxicated
and involved in an auto accident.
Anita met Ronnie Walker when she was 18 or 19. A year or two later, she gave birth to
Walker, and two years after that to Terry. Ronnie's brother, Kenneth Walker, lived with them for
a while. He acted strange.
Ronnie's job as a meat cutter "took him all over the place," and he lived in Hawaii when
the kids were very young. As a result, she and Ronnie divorced when Walker was around four.
She ended up moving to the Mississippi Coast for employment so she could raise the kids. She
and the kids and two people she met in New Orleans s "stayed on the beach" and slept in a station
wagon. She eventually obtained a one room apartment for her and the boys.

3

On any occasion in which the Court asked a witness questions, the Court first inquired with counsel if anyone
objected, which no party did. Afterwards, the opportunity for further questioning by counsel was offered.

5

565

{.

Anita relayed a vague incident about a babysitter, Ms. Woodcock, pulling down Walker's
pants when he was in kindergarten. A year after the incident, Walker told her about the incident
and seemed scared.
Ronnie once came to visit the boys after the divorce and brought a big box of toys. Walker
and Terry went to stay with their dad a few times in Alaska. Each time they went they stayed for
a year. On the third visit, Walker came back but Terry stayed behind to live with their father.
Anita remarried to Winifred Frederick when Walker was seven.

Anita and Winifred

conceived Leon. She divorced Winifred after seven years because of his drinking problem and
because he slept around with other women, including his ex-wife and a niece.
Walker started "running the roads" when he was 15 or 16. Walker hung out with friends
his own age and with older men. One of the older men "growed his own marijuana" in a closet in
his house. Another one of the older men had "all these little boys" go steal stuff for him. Walker
drank alcohol with his friends between the ages of 14 and 18. Anita never saw Walker smoke
marijuana, but smelled it on him. One day she saw Walker and his friend with "little packages"
of marijuana, "and he was like selling it or giving it somebody." She did not have control over
Walker during his teenage years because she worked so much.
When Walker was about 23, he and Robin had a child together. He took care of the child
until he was arrested when she was six months old.
Anita claimed that Walker's attorneys did not speak to her prior to trial and that she did not
know what they were going to ask her until she was on the stand. Had she been asked the same
questions at trial that she was asked at the evidentiary hearing, she would have provided the same
infonnation then.

6

566

On cross-examination Anita was not sure whether Walker was five, six, seven, or eight
years old the first time he went to Alaska to stay with his father. But the third time he went to stay
with his father in Alaska, Walker was 21 or 22 years old when he returned, a year or two prior to
murdering Konya Edwards.
Anita remembered Walker drinking when he was 17 years old, but did not remember if he
drank before he was 17 years old. She did not know whether Walker sold the marijuana she saw
in his room, she just knew there were three or four packets.
Although she made it sound like Walker was a young boy when he was under the influence
of older men who got him and other friends to steal, Anita clarified on cross-examination that
Walker was 20 or 21 years of age when he got in trouble for stealing.
Upon examination by the court, Anita testified that Walker responded appropriately when
he spoke with a man who "mooned" her. She tried to do the best for her children and taught them
respect for other people and their property. She grew up in church and took Walker to church to
teach him right from wrong and teach him values. He was running around with kids she did not
approve of when he was in his late teens, early twenties. The violent actions Walker committed
against Konya Edwards was not behavior Walker would have learned living in her home.

Nellie Richards
Nellie Richards is Walker's aunt, Anita's sister. She and Anita had three other siblings.
She recalled that her parents divorced when she was around three years old. She recalled that one
day prior to the divorce, the other kids were playing in the front yard and she and her dad were
playing "cowboys and Indians in the back yard." He tied her hands behind her back and told her
to "get them undone." She went to her mother to untie her hands, and the next day her mother
filed for divorce. Nellie had no independent memory about any other time her father tied her or a

7

567

sibling up. The Court allowed Petitioner's counsel to proffer her hearsay statement that another
brother told her that their dad use to "tie the two of use up and lock us in the closet and tum the
light out."
After the divorce, their mom worked during the day and spent time with her boyfriend at
night. Anita left home "because she said no one was home." Anita thought it would be good for
Walker and Terry to stay with their dad in Alaska since she and her siblings did not have a
relationship with their father growing up. The boys were happy and did well when they stayed
with Ronnie in Alaska.
Anita always worked hard to support the kids and put them first. Walker always did what
Nellie asked of him when she would visit. She was aware that Walker drank some alcohol in his
late teens.
Walker's attorneys never contacted her, but she would have testified at trial if asked.
On cross-examination, Nellie testified that she briefly lived with Anita when Walker was
a baby, but other than, she that lived in New York and New Jersey for the remainder of Walker's
pre-incarcerated life. Nellie visited Anita and the kids some, but most of what she knew about
Walker came second hand, from telephone conversations she bad with Anita "every few months
or so." She had no personal knowledge of Walker ever smoking marijuana, but she thought she
may have seen him drink a beer once.

Ronald Walker
Walker's father, Ronald Walker, testified about meeting Anita when be was around 19 and
them marrying a few years later. They remained married for seven years and divorced when
Walker was around three years old. After moving to Alaska, he did not hear from or see the kids
again for three and a half years, although he had attempted to locate them during that time. Walker

8

568

stayed with him three or four times in Alaska, and Ronnie enrolled him in school there. The first
time Walker went to Alaska he was around nine years old, and Ronnie's co-workers would
compliment Walker for being so well-behaved. Walker complied with the house rules and helped
with house work and yard work. Ronnie recalled no behavior problems. Although Ronnie worked
a lot, he spent quality time with Walker and would take him fishing.
When Walker came to stay a second time when he was 17 years old, Ronnie noticed subtle
changes in his behavior. His mother would "ship him to Alaska" after getting in "a little trouble
... just being a little wild, wild child." Ronnie characterized him as a little rebellious, noting that
he did not approve of Walker's long hair and required him to get it cut. Walker was not happy
about it but complied. Walker also broke curfew. The only trouble Ronnie could specify Walker
was getting into in his teen years in Mississippi was "fighting chickens and stuff like that."
Ronald tried to "straighten him out and set him on the right road" while Walker stayed with
him. Ronald and his wife took Walker and Ronald's other children to church. Walker was even
baptized there, and Ronald noticed a positive difference in him.
Walker's attorney's never contacted him. He would have testified if contacted. Ronald
testified on cross that he was 21 and Anita was 20 when they married. Ronald was never abusive
nor did Walker ever suggest that his mother had been abusive. Anita called and told Ronald that
Walker had been charged with capital murder but did not tell him the trial date.

Terry Walker
Walker's brother, Terry Walker, is two years Walker's junior. Terry was too young to
remember his parents divorcing. His first memory of his father was when Terry visited him in
Florida when he was six or seven. The first time Terry visited his father in Alaska was his second
grade year in school. The second time he went, he was in fifth grade, and the third time, when he

9

569

was in seventh grade, he stayed permanently. Ronald and his wife disciplined him more than his
mother and required him to do chores and "was pretty into school." Terry testified he had a good
family life in Alaska and received a good education there.
When he came back to Mississippi, his mom was working two jobs and her husband also
worked. So no one was watching him, Walker, and Leon. Anita's husband Winfred was "always
drunk." Terry, who described himself as a timid child, may have been apprehensive of Winfred
when he was drunk, but stated that Winfred was never abusive. Petitioner's counsel attempted to
refresh Terry's memory with an affidavit Terry allegedly executed a year prior which indicted that
Winifred had hit him, but Terry averred no recollection of that ever happening. But their mother
did whip all the kids with a belt.
Terry recalled living near the Reyers, who were Winfred's kin. Terry recalled Winfred
having a sexual relationship with his niece Brenda Reyer when she was around 16 or 18. Terry
testified that the three Reyer sisters had inappropriate sexual contact with him when he was around
12 years old.
Terry characterized Walker's Mississippi friends as "corrupt." Walker's attorney's never
contacted him. He would have testified on Walker's behalf. Later, on re-cross examination,
however, Terry admitted he did not really know Walker during Walker's developmental years
because they grew up in separate households.
On cross, Terry testified that around 1989, he secured a place to live and a job for Walker
in Alaska. Walker came for a while, but did not like the work and wanted to move back to
Mississippi.
Terry had no personal knowledge as to whether the Reyer sisters had inappropriate sexual
contact with Walker. The sisters were not adults at the time they had inappropriate sexual contact

JO

570

with him; they were "just older kids." Terry opined that being spanked with a belt was abusive.
Winifred never put his hands on him or Walker.
Upon being questioned by the Court, Terry testified that his half-brother Leon grew up in
the same environment as he and Walker did. Leon married, had children, and like Terry, managed
to sustain employment throughout his adult life. Leon never had run-ins with the Jaw other than
one misdemeanor DUI. The affidavit petitioner's counsel presented to him on direct examination,
with the incorrect allegation of Winfred having hit him as a child, was prepared by either an
attorney or investigator and sent to him to sign. When Terry last saw Walker in 1989 in Alaska,
he noticed no change in Walker's behavior or anything that caused suspicion or alarm in any way.

Leon Frederick
Walker's half-brother, Leon Frederick, is nine year's Walker's junior. Even though Leon
was much younger, he recalled some of Walker's friends growing up. Walker and his friends
would go fishing and work on cars together. Walker and his friends drank beer at the lake.
Petitioner's counsel attempted to get Leon to state he saw Walker and his friends smoking pot or
using other illegal drugs, but Leon asserted he saw no such thing. Leon was also aware of a couple
of older men Walker and his friends hung around. Leon had no first-hand knowledge about Walker
and his friends stealing things. One of Walker's friends use to smoke weed.
Growing up, Leon got spanked by his father, Winfred, "once in a blue moon." Winfred
spanked with his hand, Anita spanked with a belt.
Leon did not recall testifying at Walker's trial.
On cross, Leon testified he did not remember seeing Walker or his friends drink at
Winfred's house. He was not sure if they ever drank at Anita's house.

11

571

Vera Faye Breland
Vera Faye Breland knew Anita when they worked together at the South Mississippi
Retardation Center, now known as South Mississippi Regional Center. Breland was Anita's
supervisor. Breland knew of Amanda, Leon, and Walker, but only saw Walker once or twice when
he came to their place of employment. The once or twice she ever saw Walker was "a short visit"
at that. The apparent purpose of Breland's testimony was to testify about an incident that she
either saw, saw part of, or did not see at all. It appears from the testimony that she once saw
Walker "in a playful type situation" possibly pinch his mother's breast.

But in the same

description, Breland stated, "I didn't actually see him actually pinch her inappropriately .... " But
she may have seen "his hand was around her up in here" during what she characterized as a "playful
type situation."
The Court allowed Breland to testify that Anita had once told her that a male neighbor gave
Amanda a bikini as a gift when Amanda was 12. Anita was not "threatened" by the act, but Breland
let her know she though it inappropriate. Breland also testified that Anita had been told by
someone that the man who bought the bikini had also been "peeping in her window." 4
On cross-examination, Breland reiterated that she did not personally know Walker.

Earl Stegall
Earl Stegall was one of Walker's trial attorneys. Mr. Stegall suffered a stroke in 2005.
Stegall still has memory problems, and when asked if he had "sufficient recollection of the facts
of this case," Stegall responded he would do the best he could. He elaborated that he had "reviewed
things and tried to remember everything, particularly talking with you in recent times, and that

4

See footnote 2 above.

12

572

refreshed my memory." But Mr. Stegall honestly clarified, "Now, that's not to say Twill remember
everything today because I still have problems with my memory. But I will do my best."
One thing in particular Stegall has trouble remembering is dates. He believes he began
practicing law in 1972 or 1973 and stopped practicing in 1992 or 1993. He handled many murder
cases and death penalty cases during his practice. Mr. Stegall quit practicing law when he was
disbarred and later incarcerated because he embezzled money from a client's trust account. He
served more than two and a half years in prison as a result of the embezzlement conviction(s). Mr.
Stegall could not recall whether he was facing legal trouble at the time he represented Walker. He
also no longer possessed Walker's file as it was destroyed during Hurricane Katrina.
Mr. Stegall looked back with pride, rightly so, on the fact that in all the death penalty cases
he had tried, Walker's was the only one where he successfully moved the court to suppress his
confession. Although he believed the guilty phase to be "a foregone conclusion," Stegall thought
Walker stood a chance at sentencing until Jason Riser pied out and agreed to testify for the State.
Stegall testified as follows regarding his strategy for mitigation:
That -- the thing that I was going to do, I remember I was going to have him
address the jury rather than have him testify. I think that's exactly what we did. 5
And I wanted to -- my thing in death penalty cases was to personalize them. Make
them a person, you know. And tell their life history as well as you could so the jury
could look at them and think of them as a person and not just somebody sitting there
charged as a murderer. And I remember, I don't have an independent recollection
of this, but l know I must have done it. We had the mother come and testify, that
was the plan, and then a sister or a brother was going to testify. And I don't really
have a good independent recollection of what they said or anything to be truthful
with you.
Stegall had no direct memory of meeting with Walker's family prior to trial, but testified
that "almost certainly" he would have talked to them on the phone prior to trial and met with them

5

Stegall's memory is accurate here as the trial testimony transcript reflects that the defendant Walker stood and
made a personally addressed the jury during closing argument at sentencing.

13

573

in person once they were in Vicksburg. 6 He could not remember whether he had contact with
Walker's family in Alaska or Florida or whether he attempted to obtain an investigator to assist
with collecting mitigation evidence. Robin Midcalf, a new lawyer at the time, was his co-counsel.
Again, he had no direct memory, but Stegall believed he would have used Midcalf to investigate
Walker's case. 7 Stegall did not think he consulted with "any experts about mitigation" for the
1991 trial.
Stegall was presented with an affidavit he allegedly executed in 2012, but again, he had no
direct memory the contents. Stegall recalled having been recently presented with Mendel's report.
He was asked, "Do you have an opinion as to whether that's the type of investigation that you
would have wanted to perform if you had had -- if you had known that this was not -- you were
going to need a penalty phase case?" Stegall maintained that he believed getting Walker's
confession suppressed was going to get him a life sentence. When asked whether he had any
strategic reason for not doing more of a mitigation investigation, Stegall responded, "I can't say
that I did. I wish I could remember better and I could answer your question, but I just can't
remember."
On cross-examination, Stegall testified that he was not familiar with Dr. Mendel and does
not think he knew of him at the time of Walker's trial. Stegall did, however, have Walker
examined by a Dr. Maggio. But Dr. Maggio's report disappeared during Hurricane Katrina. 8 But
had it been favorable to Walker, he would have used it at trial.

6

He could not think of Walker's

The court file contains correspondence from defense counsel requesting that subpoenas be issued to secure the
attendance of Anita Fredericks, Amanda Fredericks, Winifred Leon Fredericks, Margaret Thomas and Mike
Maniscalco at trial.
7
Only Stegall testified at the hearing.
8
The witness' recollection on this matter was obviously wrong as the report was later discovered after the hearing.
In fact, all counsel believed the report no longer existed, and all had advised the Court that they could not locate it.
The report was not secreted away from anyone, but was one of many articles contained within several boxes of
exhibits and appellate records in the clerk's vault. No fault is attributed to any party for not having this report prehearing, and as the Court ruled previously, no further evidentiary hearing is necessary concerning this report.

14

574

post-conviction attorneys names, but indicated that Mr. Voisin prepared the affidavit he signed
and he may have remembered the infonnation at the time he signed it after the attorneys refreshed
his memory at the time. At the time he represented Walker, he had handled many capital cases in
Harrison County and won some of them. He had never been found ineffective in any of those case
by a reviewing court. Stegall had no independent recollection of what took place at the time of
Walker's trial or what his decisions were at that time.
On redirect, Stegall testified Dr. Maggio likely examined Walker for competency, but he
could not say one way or another whether Dr. Maggio's examination related to mitigation.
Upon questioning by the Court, Stegall testified that if he had any information about
Walker's past criminal history or alcohol or drug abuse, he would not have presented such
information at trial and would not want similar information in the hands of the prosecution. In a
follow up question by counsel for Respondent, Stegall testified that there was nothing about
Walker that gave him cause to think he should hire a psychologist.

Dr. Matthew Mendel
Dr. Matthew Mendel was offered as an expert in psychology, "and more specifically, on
the impact of childhood traumatic factors on the psychological development of adults." The trial
court accepted him as an expert in psychology, adding, "and to whatever area he touches on in that
specialty, I will give it what weight and credibility I think it deserves."
Dr. Mendel was asked by Petitioner's counsel to "explore the presence of possibly
traumatizing factors in Alan Walker's life, and to address the impact of those factors upon him,
how they contributed, if at all, to him, to his childhood development, and to becoming the adult he
became." Dr. Mendel defined traumatizing factors as follows:
I would define it as anything that is beyond the normal range of experiences. So
destructive, or painful, or psychologically disturbing factors that are beyond the
15

575

regular bumps and bruises that we all experience in childhood. It could be a very
wide range of things. So it could certainly cover physical abuse, sexual abuse,
emotional, verbal abuse. It could cover parental neglect. It could cover severe
poverty, family instability, transitions, homelessness, could cover an injury, a
severe injury, that if somebody experienced that. A physical disablement. It could
cover if somebody grew up in an environment with very high levels of lead, that
could be a traumatizing factor. So a wide -- any destructive disturbing factor in a
person's life that's beyond the normal range of experiences. 9
When asked how he assessed for the presence or absence of traumatizing factors with
Walker, Dr. Mendel said he talked to Walker on two separate occasions (in 2008 and 2016) and
interviewed his mother, his daughter (who was only one at the time of the murder), Robin Marroy,
and the Reyer sisters. He also spoke with Amanda, Terry, and Leon on the phone. He also
reviewed declarations from some of the people he spoke with and from Faye Breland, Earl Stegall,
Michael Shavers, Paula Shavers, and Nellie Richards. He also spoke with Ronald and Terry after
the first day of the PCR evidentiary hearing. Dr. Mendel also spoke with Dr. Shaffer. Dr. Mendel
prepared a report in 2008 and a short supplement to his report in 2016.
Dr. Mendel opined to a reasonable degree of psychological certainty that Walker
"experienced a wide range of disturbing events that have had a profound impact upon him." He
further opined that traumatizing factors had an impact on Walker's development into adulthood.
Dr. Mendel further opined that "we can only understand Alan's behavior on that date by
understanding and taking into account this -- these multiple factors, the traumas that he
experienced in childhood." Mendel elaborated that he attempted to determine Walker's source of
rage against women by analyzing his childhood.
Dr. Mendel discovered the following "traumatizing factors" which he opined impacted
Walker's development into adulthood: extreme poverty and instability, lack of parental

9

It appears that a traumatizing factor could be a wide range of things, none of which any of the prior lay witnesses
who knew Walker had described.

16

576

supervision

and

oversight,

being

undressed

by

a

babysitter,

fatherlessness,

inappropriate/premature sexual activity, and the use of alcohol and marijuana as a teenager.
Mendel testified that the overall impact of all of the aforementioned "trauma" resulted in
"central themes" for Walker including power, powerlessness, control, and helplessness. The
poverty he grew up in made him feel unsafe. An incident in which a friend of his mother's
undressed him made him feel powerless and scared. Walker was a "very needy boy" who wanted
affection and did not know how to get it. Introduction to sexual activity at a young age was
confusing and overwhelming and distorted his views of women and sexual relationships. This
introduction to sexual activity at an early age also, according to Mendel, "plays a central pivotal
role in his anger and rage" which is directed solely at women. The introduction to sex at an early
age also causes Walker to suffer from the "Madonna-whore complex." Sufferers of this complex
put "good girls" on a pedestal and view them as "perfect pure virginal beings," but are drawn to
women they perceive as "promiscuous, slutty, whorish women." Alcohol consumption may have
also played a role in Walker's rage and violence.
Petitioner's counsel asked whether it would have been possible for a psychologist in 1990
to analyze the foregoing factors the way Mendel did and testify at Walker's sentencing hearing.
Dr. Mendel replied, "I believe so."
On cross-examination, Dr. Mendel stated that although he discussed what was very clearly
an unfounded rumor about the possibility of a sexual relationship between Walker and his mother
in his report, he "did not in any way rely upon it in making my diagnosis." 10 Dr. Mendel then
jumped quickly to incident that Faye Breland described. In his report and testimony, Dr. Mendel

10

Dr. Mendel's report does state however that sexual abuse is particularly damaging to a child.

17

577

characterized the alleged nipple grabbing incident as sexual in nature. However, Dr. Mendel
acknowledged that Breland "backtracked enormously" in her testimony . 11
Although the entirety of Dr. Mendel's testimony concerned "trauma" Walker endured
during childhood, Dr. Mendel was unsure of the American Psychological Association's definition
of "trauma." Even if fatherlessness is not considered trauma under the APA definition, Dr. Mendel
does not "believe that the APA is some sort of gospel." Dr. Mendel's own definition of trauma is
"things that are out of the -- beyond the pale. Things that are highly unusual and painful or
devastating or destructive on the upbringing of an individual."
Dr. Mendel was asked how his opinion that Walker suffers from the Madonna-whore
complex is relevant to his actions against Kanya Edwards, who was a stranger to him so he could
not have known whether to classify her as a Madonna or a "whore." Dr. Mendel responded that
Walker simply has anger and rage at women generally and that he felt unsafe around women.
Dr. Mendel did not diagnose Walker with anything. Rather, the purpose of Mendel's
evaluation is "to be able to explain this human being to help anybody involved in this case ...
understand how he became the adult he became."
Dr. Mendel testified that a few weeks of homelessness did not cause "all of this trauma."
Dr. Mendel recognized that although he makes statements and conclusions about "drug use," he
had no concrete proof that Walker actually smoked marijuana. Dr. Mendel opined as to the
importance of Walker not being hugged as a child, but did not inquire as to whether he was held
or hugged as an infant. Dr. Mendel referred to Walker as an alcoholic although he had never been
diagnosed as such. Dr. Mendel pointed out that four of Walker's friends he drank alcohol with as

11

Breland's testimony did not contain evidence of sexual touching. This conflict in the evidence is noted as it bears
on the Court's evaluation of weight and credibility of the testimony and petitioner's ability to meet his burden of
proof.
18

578

teenagers are now dead, but he admitted he had absolutely no proof that their deaths were alcohol
related. Much of his report is based on Walker's self-reporting. 12
Mendel's report focuses strongly on the sexual contact Walker and Terry had with the
Reyer sisters. Mendel states in his report that he "piec[ed] the ages together" and that "it appears''
Terry and Walker were six and eight years old when this act occurred with an eleven-year-old
Reyer sister. Mendel testified as to these ages at the PCR hearing. However, Terry's affidavit
states only that he had not yet reached puberty when a Reyer sister performed oral sex on him.
And at the hearing, Terry stated that he was 12, making Walker 14, at the time they had sexual
contact with Reyer sisters, who Terry characterized as ''older kids." 13

Robert Shafer
Dr. Robert Shafer was accepted as an expert in forensic psychology and neuropsychology.
Dr. Shafer performed a neuropsychological assessment of Walker. In addition to administering
neuropsychological testing, he considered and relied on Dr. Mendel's report and findings of
trauma. Dr. Shafer did not personally review any witness statements which were the basis for
Mendel's findings. Dr. Shafer testified that there is a correlation between childhood trauma and
brain function, including difficulty processing verbal information, impairment of executive
functioning, interference with appreciation of consequences, interference with regulation of
emotions, and possibly with ability to make good judgments. Types of trauma that can affect brain
function in the foregoing ways include maternal neglect, "psychological abuse in terms of

2

Walker self-reported LSD use to Dr. Maggio but did not report it to Dr. Mendel
To the Court, there is a difference in an eight year old engaging in sexual activity than a fourteen year old engaging
in sexual activity. While Mendel offered no testimony to indicate what, if any, difference this six year age difference
would make on his conclusion, this major discrepancy has bearing on the weight and credibility of Mendel's testimony
about the effects of childhood sexual activity.
i

13

19

579

disrespectful treatment of the body," and sexual abuse. Alcohol consumption during teenage years
can also lead to developmental arrest, such as inability to make friends.
Dr. Shafer opined, based on his evaluation of Walker, that Walker's neuropsychological
profile "is consistent with that of individuals that have experienced various traumas during their
developmental period."
Dr. Shafer described numerous tests he administered to Walker.

Among the tests

administered in whole or in part were the Test of Memory Malingering, the Structured Interview
of Symptoms, the Wisconsin Card Sorting Test, the Stroop Test, the Iowa Gambling Test, and the
Rey Auditory Verbal Learning Test. Based on the Structured Interview of Symptoms, Dr. Shafer
claimed that Walker had difficulties with speech articulation, confusion spells, memory gaps,
unrecalled behaviors, numbing and tingling sensations, irregular heartbeat, flushing or hot
sensations, and frequent headaches, all of which are "statistically ... correlated with known cases
of brain impairment." Walker apparently did pretty poor on all tests administered which suggests
impairment in frontal lobe executive functioning, the left hemisphere, and in the transfer of
information between the hemispheres of the brain.
On cross examination, Dr. Shafer was asked why neuropsychological testing was necessary
in this case. He responded that adults who have experienced childhood trauma "have some
characteristic deficits in neuropsychological functions" and it is "good practice to at least do a
screening of brain integrity with any individual that's facing a death penalty."
Dr. Shafer was questioned about why he failed to put Walker's scores on the administered
tests in his report. Shafer replied that his report "was intended to give global information, not a
specific numeric detail." Dr. Shafer seemed to acknowledge that his failure to report scores made
it impossible for Respondent to have an expert review the vague findings. Although Shafer

20

580

provided more detail in his testimony, his report included very general tests results such as "below
average" and "impaired range."
Dr. Shafer was asked about an Alabama case in which he offered expert testimony and in
which the reviewing court found that his opinion was based on false information which he had not
attempted to verify or validate. Shafer responded, "I had that information which was provided to
me and I was able to describe the source. But no way of proving or perfectly corroborating the
accuracy of the information." Shafer indicated that in all of his evaluations he relies on sources
and information presented to him which he does not personally confirm. He elaborated that "every
time this kind of inquiry is conducted, hypotheses are presented and conclusions are reached with
relative degrees of certainty. But never with perfect certainty."
The only records Shafer reviewed in conducting his evaluation were Walker's school
records. He agreed that it is often useful to review the subject's medical records, but he did not do
so in this case. He also did not personally review any information regarding the horrendous crime
Walker committed, nor the details of his case, relying instead on Petitioner's counsel rendition of
the facts of Walker's case.
Dr. Shafer was asked what information he relied on to corroborate the test results. Dr.
Shafer stated that he corroborated the results only with the research information and scoring tables
from the tests themselves. Shafer sought out no information specific to Walker to corroborate the
test results, choosing instead to rely on Mendel's report, which he accepted without question. He
did question Dr. Mendel "about a few finer points" and claimed that an example of convergent
information obtained was that which related to the extent of Walker's alleged sexual abuse.
Dr. Shafer agreed that Walker knows the difference between legal and illegal activity.
Shafer agreed that psychopaths show deficient functioning in the same areas of the brain he alleges

21

581

Walker has deficient functioning. Shafer does not think Walker is a psychopath because the history
he relied on from Mendel does not indicate Walker had a substantial history of cruelty or
aggression toward children or animals. Shafer acknowledged that Mendel reported Walker was
aggressive and violent to females, but Shafer pointed to the fact Walker had "feelings for his sister
and sadness about the events that happened when they were children." Shafer claimed Walker
wouldn't have those feelings if he were a psychopath as opposed to someone who allegedly had
impaired brain functioning due to "childhood trauma."
Dr. Shafer acknowledged that it can only be inferred that the deficits Walker allegedly has
now were present at the time he brutally raped and murder Konya Edwards. Dr. Shafer testified
that he could not say that at the time of the crime Walker had the impairments he allegedly has
now. Rather, what Dr. Shafer suggests is that "at the time of the incident, that he was functioning
with some deficits in neuropsychological functions." Dr. Shafer elaborated that he could somehow
know that at the time of the murder Walker was impaired in the abilities to "anticipate the
consequences in a series of actions, and especially to attach relevant emotional significance to the
consequence of his actions" and that he had issues relating to "impulsivity and the regulation of
emotions." Dr. Shafer could not say that any of Walker's alleged deficits caused him to kill Konya
Edwards. But Shafer claimed the alleged deficits were "causation factors." When asked what a
causation factor is, Shafer replied, "the factor is diminished capacity in the functioning of his
brain." The diminished capacity did not cause Walker's actions, but influenced them.

IV.

ANALYSIS UNDER STRICKLAND

A. Deficient Performance
Courts reviewing ineffective assistance claims "must indulge a strong presumption that
counsel's conduct falls within the wide range of reasonable professional assistance; that is, the

22

582

(petitioner] must overcome the presumption that, under the circumstances, the challenged action
might be considered sound trial strategy." Id. at 689 (internal quotations omitted). Moreover, the
U.S. Supreme Court has recently reiterated that" '[s]urmounting Strickland's high bar is never an
easy task.' "Richter,supra, at--, 131 S.Ct., at 788 (quoting Padilla v.Kentucky, 559 U.S. - , - , 130 S.Ct. 1473, 1484, 176 L.Ed.2d284, (2010)).
Petitioner's counsel, like Strickland's counsel, claims that defense counsel was ineffective
for properly investigating and presenting a case in mitigation. The Strickland court found as
follows regarding whether the counsel's decisions regarding investigation of mitigation evidence
can be considered deficient performance:
[S]trategic choices made after thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable; and strategic choices made after
less than complete investigation are reasonable precisely to the extent that
reasonable professional judgments support the limitations on investigation. In
other words, counsel has a duty to make reasonable investigations or to make a
reasonable decision that makes particular investigations unnecessary. In any
ineffectiveness case, a particular decision not to investigate must be directly
assessed for reasonableness in all the circumstances, applying a heavy measure of
deference to counsel's judgments.

Id. at 690-91 (emphasis added).
Stegall's strategy was to personalize or humanize his client. As summarized above, he
wanted his client to make a personal statement to the jury. If he had testified instead of offering
his testimony at the sentencing phase, he would no doubt have be subjected to vigorous crossexamination on the violence he inflicted upon Edwards. Consistent with that strategy, trial counsel
also put forth witnesses who could offer more details into Walker's life. That is, counsel offered
family and friends to provide evidence designed, to the extent it could, to counter the brutality of
Konya Edwards' murder.

The testimony heard by the jury provided virtually unchallenged

evidence that Walker had a supportive family; a young daughter whom he loved; relatives who

23

583

loved him; he enjoyed respectable employment and had even risked his own life by rushing into a
burning house to save a child. That strategy did put forth a humanizing or personalizing premise
to the jury. Accordingly, it cannot be said to be unreasonable to this Court.
This is especially true after trial counsel received and reviewed Dr. Maggio's report. Dr.
Maggio was appointed to perform a competency evaluation, but his report provided greater breadth
than just opining on competence to stand trial. Notably, Dr. Maggio did not find any defect of
intellect, memory or judgment. Further, there was no major psychiatric diagnosis, but Walker
appeared to have Antisocial Personality Disorder. Dr. Maggio references Walker's family history,
where he was born, his educational and work history. Likewise, the report details the facts of
Konya Edwards' murder and how Walker expressed no remorse. 14 Walker admitted to alcohol
use, denied marijuana consumption, but had been an LSD user for 6 or 7 years. A fair reading of
the report would have ruled out a M 'Naughton insanity defense and there would be no reason for
trial counsel to develop additional psychological or psychiatric evaluations.
Stegall 's strategy would have been reasonable under the facts presented. Ross v. State 954
So.2d 968, 1005 (Miss. 2007)(while trial counsel is not required to exhaust every conceivable
avenue of investigation, he or she must at least conduct sufficient investigation to make an
informed evaluation about potential defenses.)

Had trial counsel offered the jury the same

evidence that PCR counsel did, the prosecutor would be armed not only with Dr. Maggio's
opinions, but the jury would have heard about Walker's other bad and criminal conduct. Stegall
testified at the hearing that he would not have wanted the other evidence of bad and criminal
conduct in the hands of the prosecution to use against his client. And no doubt he would not have
wanted Dr. Maggio' s to testify about his evaluation of Walker.

14

The report was never provided to the prosecutor at the trial level as Walker's mental status was not at issue. Even
if disclosed, inculpatory evidence referenced in the report could not have been used by the state.

24

584

While PCR counsel would have advanced a different theory to the jury in mitigation, 15 this
Court cannot accept what Stegall did as constitutionally deficient. It is too facile "for a court,
examining counsel's defense after it has proved unsuccessful, to conclude that a particular act or
omission of counsel was unreasonable." Green, 868 F.2d at 178 (citing Strickland, 466 U.S. at
689). In Howard v. State, 945 So. 2d 326 (Miss. 2006), the Supreme Court reminds us:
A fair assessment of attorney performance requires that every effort be made to
eliminate the distorting effects of hindsight, to reconstruct the circumstances of
counsel's chal1enged conduct, and to evaluate the conduct from counsel's
perspective at the time. Because of the difficulties inherent in making the
evaluation, a court must indulge a strong presumption that counsel's conduct fal1s
within the wide range of reasonable professional assistance; that is, the defendant
must overcome the presumption that, under the circumstances, the challenged
action "might be considered sound trial strategy." See Michel v. Louisiana, supra,
350 U.S., [91.] at 101, 76 S.Ct., [158] at 164 [100 L.Ed. 83 (1955)]. There are
countless ways to provide effective assistance in any given case. Even the best
criminal defense attorneys would not defend a particular client in the same way.
See Goodpaster, The Trial for Life: Effective Assistance of Counsel in Death
Penalty Cases, 58 N.Y.U. L.Rev. 299, 343 (1983).

Howard v. State, 945 So. 2d 326, 354 (Miss. 2006) (Emphasis added).
Strickland, 466 U.S. at 689-90; Stringer, 454 So.2d at 477.
Considering the foregoing, the strategy to humanize or personalize the defendant and its
attendant investigation by trial counsel did not represent deficient performance.

B. Petitioner Fails to Show Prejudice Which Resulted From the Alleged Deficient
Performance.
Even if this Court found that petitioner proved the first element of Strickland, be must also
show that counsel's alleged deficient performance resulted in prejudice. 16 The second Strickland

15

Much of petitioner's evidence, upon proper objection, would likely have been excluded from jury consideration at
a sentencing trial. While the rules of evidence are applied less strictly during a sentencing hearing, several witnesses
offered speculative testimony, generous amounts of (double) hearsay, and much of it was cumulative.
16
The Court commented at the conclusion of the evidentiary hearing that it was considering that petitioner had
satisfied the first prong of Strickland. 1t should be noted that the Court did not make that finding but offered that

25

585

prong requires a showing that "there is a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have been different." Strickland, 466
U.S. at 694. In the death penalty context, Stn"ckland' s second prong requires the petitioner to prove
that "absent the errors, the sentencer-including an appellate court, to the extent it independently
reweighs the evidence-would have concluded that the balance of aggravating and mitigating
circumstances did not warrant death." Id. at 695. The errors of counsel must have been so serious
that they deprived the defendant of a fair trial, that being a trial with a reliable result. Havard v.
State, 928 So. 2d 771, 781(Miss.2006), (quoting Strickland, 466 U.S. at 687). The court deciding

the ineffective assistance claim must consider the totality of the evidence which was before the
sentencing jury, and must determine whether the petitioner has proven that the jury's sentencing
determination "would reasonably likely have been different absent the errors." Walker has failed
to prove prejudice in this regard.
Much of the lay witness testimony presented at the PCR hearing did not pertain to Walker
personally. That which did revealed that Walker drank beer as a teenager, stole "stuff' with
friends, had teenage and older friends who were bad influences, and that his mother's method of
discipline for her children was to spank them with a belt. 17 Walker's experts' opinions, much of
which are based on unverified information (and in some instances rumor and mere speculation),
are that Walker suffered trauma in childhood which left him feeling powerless, helpless, and

comment as an initial impression. However, upon further review of the testimony transcripts, contemporaneously
made notes and post-hearing briefing, the Court is not persuaded that the first prong of Strickland was met.
17
The assertions contained in Dr. Mendel's report that Walker and his brother Terry were sexually abused at the ages
of 6 and 8, was discredited by Terry's testimony that the acts happened when he was 12, making Walker 14 at the
time. Engaging in sexual activity by a 14 year old who was running with other teenagers his age and older men
would not be out of the question. It is totally speculative that this caused the trauma Dr. Mendel associated with it.
Further, Dr. Mendel's speculation on sexual matters is further demonstrated by his inclusion of the assertion that
Walker had a sexual relationship with his mother, and if offered in the presence of a trial jury would have been
excluded.

26

586

unsafe. The alleged childhood trauma affected Walker's brain functioning. This impaired brain
functioning resulted in some type of diminished capacity which could have influenced, but not
caused, Walker's actions at the time of the murder. This is simply not the type of evidence from
which this Court could find that the jury would have reasonably likely opted for a life sentence
had it been presented at sentencing.
Evidence of Walker's "childhood trauma" stacked against the brutality of what he did to
Konya Edwards reasonable could not have caused the jury to consider a life sentence. To be sure,
the jury heard the detailed heinous facts regarding murder, including:
•

Walker's victim, Kanya Edwards, was "a young teenager who fought back
against her assailants and at other times cooperated in a vain attempt to
avoid being killed .... " Walker v. State, 671 So. 2d 581, 587 (Miss. 1995).

•

Prior to raping Edwards, Walker hit her in the face several times. Id. at 589.

•

While dragging her out of the vehicle to the location where she would first
be brutally sexually assaulted, any time Edwards would resist Walker he
would hit her and "repeatedly say 'live or die.'" Id.

•

When Walker was initially unable to sexually penetrate the victim, he told
Jason Riser to "take his tum." Id.

•

After Riser vaginally raped Edwards, Walker anally raped her while forcing
her to simultaneously perform oral sex on Riser. Id.

•

Walker also forced the victim to perform oral sex on him. Id.

•

Edwards responded by biting his penis, and Walker punched her in the face
again. Id.

•

After the violent rape, Walker choked Edwards and beat her some more. Id.

•

Walker forced the victim to lie on her stomach and put her chin on a log.
Id.

•

He then repeatedly stomped the back her neck - seven or eight times. Id.

•

During these torturous events, Edwards begged and pleaded for her life. Id.

27

587

•

Walker responded by taking her out into the lake and alternated "choking
her and pushing her head beneath the water" for about ten minutes. Id. at
590.

•

Edwards eventually stopped splashing and Walker apparently thought she
was dead. Id.

•

When he realized she was not, he and Riser carried her away from the lake
and Walker shoved a stick in Edwards' vagina. Id.

•

Walker eventually doused the victim in gasoline and burned her body. Id.

It follows then that from this evidence, the jury found (beyond a reasonable doubt) that

Walker committed two separate aggravating circumstances in the murder of Konya Edwards.
Those were that Walker committed the capital murder while engaged in the commission of the
crime of sexual battery and that he committed the capital murder for the purpose of avoiding or
preventing a lawful arrest. 18

In reviewing the evidence in aggravation against the totality of the available mitigating
evidence, this Court is persuaded that there is no reasonable probability that the additional evidence
Walker presented would have changed the jury's verdict. The remand evidence (presented live,
subject to cross examination and this fact finder's ability to make judgment calls about credibility)
primarily focused on Walker's family life and its effects on him. Certainly Walker did not have
an easy life and it was marred by lifestyle choices of people over whom he had no control. He
was exposed at an early age to circumstances and events to which most are not exposed. He
committed crimes, used drugs and drank. Unfortunate? Yes, but not sufficient to disturb the

18

The Mississippi Supreme Court likewise considered the brutality of the murder on direct appeal when applying its
proportionality analysis to the imposition of the death penalty. "[H]is victim was severely beaten; suffered through
forced sexual acts of fellatio and anal intercourse; was toyed with by being asked whether she wanted to live or die,
after the plan to kill her was already formed; survived various unsuccessful attempts to kill her; and finally, was
murdered and her body burned. Left behind was evidence of the humiliating sexual battery and a most gruesome
scene for her family to discovery and remember forever." Walker v. State, 671 So. 2d at 630. No doubt the heinous
nature of Edwards' murder has already been recognized by this state's highest court as sufficient to impose the death
penalty.

28

588

0
confidence in the jury's verdict. "The benchmark for judging any claim of ineffectiveness must be
whether counsel's conduct so undennined the proper functioning of the adversarial process that
the trial cannot be relied on as having produced a just result." Strickland at 686, l 04 S.Ct. 2052.
The Court is satisfied that a just result was reached by the trial jury.

V.

FURTHER CONSIDERATIONS FOR DENYING THE MOTION

This Court is not the first to consider the ineffective assistance of counsel at sentencing
issues raised here. Walker pursued a federal habeas corpus petition, including this claim; but the
claim was not yet exhausted in state court and therefore premature. The district court said that
"[e]ven if these claims were not barred, they would fail on the merits." Walker v. Epps, No.
l :97CV29KS, 2012 WL 1033467, at *53 S.D. Miss. Mar. 27, 2012). 19 Judge Starrett's order,
while not binding on this Court, provides additional persuasion to this Court that the motion should
be denied. The district court evaluated the evidence brought before it by way of affidavits and
declarations. 20 It did not have the benefit that this Court had in judging the witnesses' credibility
while testifying live and subject to cross-examination. The district court likewise found that much
of the evidence did not pertain to petitioner himself and that the evidence the jury heard would
have conveyed an adequate understanding of Walker's environment that would not have been
materially enhanced by the additional evidence. Finding that Walker had not satisfied Strickland
and that the evidence was not persuasive, the district court said:
"... with the mitigation evidence newly offered being primarily
cumulative or possibly hannful, and in light of the harsh facts of
Konya's murder, this Court could not, even if it were pennitted to
do so, say that Walker's attorney was ineffective for failing to
adequately investigate his case. See Wong v. Belmontes, 130 S.Ct.
383, 391 (2009) (holding that, in light of the possibility that the
See also, Walker v. State, 131 So. 3d 562 (Miss. 2013) at ~10-11 (Chief Justice Waller's objection to the remand
order which set out his accord with Judge Starrett's findings).
20
Drs. Schaefer and Mendel were not mentioned in Judge Starrett's opinion, so it appears that their reports were not
made part of the habeas proceedings.
19

29

589

prosecutor would introduce evidence of an earlier murder and the
manner in which this victim was killed, the notion that additional
witnesses would have helped the mitigation case was "fanciful.")
For the same reasons, the Court finds that this evidence would not
have made a substantial difference in the outcome of his case, and,
therefore, he cannot show the second required element of Strickland,
which is prejudice."
Walker v. Epps, No. 1:97CV29KS, 2012 WL 1033467, at *62 (S.D. Miss. Mar. 27, 2012).

Judge Starrett's careful consideration of the Strickland claims, even if premature, likewise
illustrates that the instant motion should be denied.

VI.

CONCLUSION

Having reviewed all the relevant materials and applying the appropriate case law to those
materials, the undersigned is persuaded that petitioner has not met his burden of proof in this postconviction remand matter. Accordingly, his Motion to Vacate Sentence should be denied.
It is therefore,
ORDERED AND ADJUDGED that the Motion to Vacate Sentence should be and is hereby
denied. It is,

so ORDERED, this the _.£-12__._rA. . . _......;d=a..._y=of'-'-A-=-li!p=ril=-,2=0=18=.
ENTERED, this the -------=d=ay"--=of'-'A...:.ip=n=·l.. . , 2=0..!. :18=.

cc: Counsel of record and Office of the District Attorney - 2d District
i

To change "expert reports" on page 29 to "declarations".

CONNIE LADNER
CIRCUIT CLERK

30

590

sv·

~

>

._
~~~--~o.c.
-,

